   DEPARTMENT OF HEALTH & HUMAN SERVICES                             OFFICE OF INSPECTOR GENERAL

                                                                     Office of Audit Services, Region III
                                                                     Public Ledger Building, Suite 316
                                                                     150 S. Independence Mall West
                                                                     Philadelphia, PA 19106-3499

June 23, 2010

Report Number: A-03-09-00017

Mr. Bruce Hughes
President and Chief Operating Officer
Palmetto GBA, Inc.
P.O. Box 100134
Columbia, SC 29201

Dear Mr. Hughes:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Part B Carrier Payments for Neulasta Injections in
West Virginia for Calendar Years 2004 Through 2007. We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(215) 861-4470, or contact Bernard Siegel, Audit Manager, at (215) 861-4484 or through email
at Bernard.Siegel@oig.hhs.gov. Please refer to report number A-03-09-00017 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Bruce Hughes


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  MEDICARE PART B CARRIER
       PAYMENTS FOR
   NEULASTA INJECTIONS IN
     WEST VIRGINIA FOR
    CALENDAR YEARS 2004
       THROUGH 2007




                      Daniel R. Levinson
                       Inspector General

                          June 2010
                        A-03-09-00017
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Prior to October 1, 2005, section 1842(a) of the Act authorized CMS to contract with carriers.
For purposes of this report, the term “Medicare contractor” means the fiscal intermediary,
carrier, or Medicare administrative contractor, whichever is applicable.

Medicare contractors process and pay Medicare Part B claims submitted by physicians and
medical suppliers (providers). Medicare contractors also review provider records to ensure
proper payment and assist in applying safeguards against unnecessary utilization of services. To
process providers’ Part B claims, Medicare contractors use the Medicare Multi-Carrier System
and CMS’s Common Working File. These systems can detect certain improper payments during
prepayment validation.

Individuals receiving chemotherapy often suffer from a low white blood cell count. Physicians
inject patients with pegfilgrastim (Neulasta), usually in 6-milligram doses, to stimulate bone
marrow and promote the growth of white blood cells. Prior to January 1, 2004, CMS assigned
Healthcare Common Procedure Coding System (HCPCS) code Q4053 to Neulasta injections and
defined one unit of service as 1 milligram. On January 1, 2004, CMS changed the HCPCS code
for Neulasta to J2505 and defined one unit of service as 6 milligrams, which represented a
standard dose.

Palmetto GBA was the Medicare Part B carrier for West Virginia. During calendar years (CY)
2004 through 2007, Palmetto GBA processed and paid more than 24 million Part B claims, of
which 4,188 claims included Neulasta injections in West Virginia. At the time of our audit,
CMS had not selected the Medicare administrative contractor for West Virginia.

OBJECTIVE

Our objective was to determine whether Medicare payments made by Palmetto GBA for
Neulasta injections in West Virginia were appropriate.

SUMMARY OF FINDING

Medicare payments made by Palmetto GBA for Neulasta injections in West Virginia were not
always appropriate. Palmetto GBA paid one provider $258,240 for 102 of the 103 payments
reviewed when it should have paid $181,246, an overpayment of $76,994. All overpayments
occurred for services performed during CYs 2004 and 2006. At the time of our audit, these
overpayments remained outstanding from the provider. Palmetto GBA adjusted one of the
original payments prior to our audit.




                                                i
Palmetto GBA made the overpayments because the provider incorrectly claimed excessive units
of service on 102 claims. In addition, the Medicare claim processing systems did not have
sufficient edits in place to detect and prevent payments for this type of erroneous claim.

RECOMMENDATIONS

We recommend that Palmetto GBA:

    •   recover the $76,994 in overpayments and

    •   consider including its Neulasta edit in the “Medically Unlikely Edits.”

PALMETTO GBA COMMENTS

Palmetto GBA concurred with the finding and recommendations. As a result of the audit,
Palmetto GBA recovered the overpayment totaling $76,994 on October 21, 2009. In addition, on
November 7, 2008, the “Maximum Allowed Units” edit began denying Neulasta services when
the billed quantity is greater than one. Palmetto GBA will also recommend that Correct Coding
Solutions, LLC, add Neulasta to its Medically Unlikely Edits. Palmetto GBA’s comments are
included in the Appendix.




                                                ii
                                                  TABLE OF CONTENTS


                                                                                                                                      Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Medicare Part B Contractors .................................................................................1
              “Medically Unlikely Edits”...................................................................................1
              Payment for Neulasta ............................................................................................2
              Palmetto GBA .......................................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope .....................................................................................................................2
               Methodology .........................................................................................................3

FINDING AND RECOMMENDATIONS ................................................................................4

          MEDICARE REQUIREMENTS ......................................................................................4

          EXCESSIVE UNITS OF SERVICE ................................................................................4

          PALMETTO GBA SYSTEM EDITS ...............................................................................4

          RECOMMENDATIONS ..................................................................................................5

          PALMETTO GBA COMMENTS ....................................................................................5

APPENDIX

          PALMETTO GBA COMMENTS




                                                                    iii
                                                INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Part B Contractors

Prior to October 1, 2005, section 1842(a) of the Act authorized CMS to contract with carriers. 1
Medicare contractors process and pay Medicare Part B claims submitted by physicians and
medical suppliers (providers). Medicare contractors also review provider records to ensure
proper payment and assist in applying safeguards against unnecessary utilization of services. To
process providers’ Part B claims, Medicare contractors use the Medicare Multi-Carrier System
and CMS’s Common Working File. These systems can detect certain improper payments during
prepayment validation.

CMS guidance requires Medicare contractors to pay for certain drugs based on the published
average sales price. 2 CMS guidance also requires providers to bill accurately and to report units
of service as the number of times the provider performed a service or procedure. During
CYs 2004 through 2007, providers nationwide submitted approximately 3.2 billion Part B
claims, totaling over $294 billion, to Medicare contractors. Of these, over 1 million claims
included approximately $1.7 billion for pegfilgrastim (Neulasta 3) injections.

“Medically Unlikely Edits”

In January 2007, during our audit period, CMS required Medicare contractors to implement
units-of-service edits referred to as “medically unlikely edits.” CMS designed these edits to
detect and deny unlikely Medicare claims on a prepayment basis. According to the CMS
Medicare Program Integrity Manual, Pub. No. 100-08, Transmittal 178, Change Request 5402, a
“medically unlikely edit” tests claim lines for the same beneficiary, procedure code, date of
service, and billing provider against a specified number of units of service. Medicare contractors
must deny the entire claim line when the units of service billed exceed the specified number.



1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
between October 2005 and October 2011. Most, but not all, of the Medicare administrative contractors are fully
operational; for jurisdictions where the Medicare administrative contractors are not fully operational, fiscal
intermediaries and carriers continue to process claims. For purposes of the report, the term “Medicare contractor”
means fiscal intermediary, carrier, or Medicare administrative contractor, whichever is applicable.
2
  In accordance with 42 CFR § 414.707(a)(1), the payment allowance limit in calendar year (CY) 2004 was
85 percent of the average wholesale price. However, beginning January 1, 2005, 42 CFR § 414.904(a) established
the payment allowance limit as 106 percent of the average sales price.
3
    Neulasta is Amgen’s registered trademark for the medication pegfilgrastim.


                                                           1
Payment for Neulasta

Individuals receiving chemotherapy often suffer from a low white blood cell count. Physicians
inject patients with Neulasta, usually in 6-milligram (mg) doses, to stimulate bone marrow and
promote the growth of white blood cells. For Part B drugs, including Neulasta, Medicare
contractors determine the provider payment amount as the lesser of the Part B drug fee schedule
amount times the number of units billed or the claimed amount.

In 2003, CMS assigned the administration of Neulasta injections the Healthcare Common
Procedure Coding System (HCPCS) code Q4053, which defined the unit size as 1 mg. Providers
billed for six units because they usually administered the drug in 6-mg doses (generally from a
pre-filled syringe). Beginning January 1, 2004, the HCPCS code changed to J2505 and
identified a 6-mg dose as one unit.

CMS documented the new HCPCS code J2505 for Neulasta with changes to its Medicare Claims
Processing Manual, Pub. No. 100-4. On December 24, 2003, CMS issued Transmittal 54,
Change Request 3022, to Medicare contractors that defined a unit of service under HCPCS code
J2505 as “injection, pegfilgrastim 6mg.” On May 12, 2006, CMS issued Transmittal 949,
Change Request 4380, to Medicare contractors (fiscal intermediaries but not carriers) clarifying
the billing procedures for Neulasta. The change request stated that “Claims for Pegfilgrastim
J2505 [Neulasta] shall be submitted to Medicare contractors so that the units billed represent the
number of multiples of 6MG provided, not the number of MGs.” Similarly, notification of the
description of HCPCS code J2505 as one single dose of 6 mgs was published three times in the
Federal Register in 2004, beginning on January 6, 2004.

Palmetto GBA

Palmetto GBA, which administers the Medicare program under contracting arrangements with
CMS, was the Medicare Part B carrier for West Virginia. 4 During CYs 2004 through 2007,
Palmetto GBA processed and paid more than 24 million Part B claims, of which 4,188 claims
included Neulasta injections in West Virginia.

In October 2006, Palmetto GBA implemented a system edit that suspended all claims for
Neulasta when the provider billed for more than one unit.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare payments made by Palmetto GBA for
Neulasta injections in West Virginia were appropriate.

Scope

We reviewed payments that Palmetto GBA processed and paid in West Virginia for Neulasta
injections provided to Medicare patients during CYs 2004 through 2007. We limited our review

4
    Palmetto GBA headquarters is located in Columbia, South Carolina.


                                                         2
of Palmetto GBA’s internal controls to those applicable to processing and paying for Neulasta
injections because our objective did not require an understanding of all internal controls over the
submission of claims. Our review allowed us to establish reasonable assurance of the
authenticity and accuracy of the data obtained from the National Claims History file, but we did
not assess the completeness of the file. 5

We performed our fieldwork from August through September 2009. Our fieldwork included
contacting Palmetto GBA, located in Columbia, South Carolina, and one provider in West
Virginia that received payments for Neulasta injections.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Medicare laws, regulations, and guidance;

    •   used CMS’s National Claims History file to identify Part B claims for Neulasta injections
        for six or more units of service with a paid amount greater than $2,006 that were not
        reviewed in other audits;

    •   identified 103 claims with Neulasta injections totaling $260,801 that were provided by
        one physician to 32 Medicare patients;

    •   reviewed available Common Working File data for the 103 claims to determine whether
        the claims had been canceled and superseded by revised claims and whether the
        payments remained outstanding at the time of our audit;

    •   analyzed Common Working File data for canceled claims for which revised claims had
        been submitted to determine whether the provider received overpayments for the initial
        claims;

    •   contacted providers to determine whether claims for Neulasta were billed correctly and, if
        not, why the claims were billed incorrectly; and

    •   coordinated our claim review, including a review of system edits and manual processing
        controls, and the calculation of any overpayments, with Palmetto GBA.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




5
  When the Common Working File history was not available due to the age of the claim, we obtained a claim history
from Palmetto GBA that contained comparable information.


                                                       3
                                FINDING AND RECOMMENDATIONS

Medicare payments made by Palmetto GBA for Neulasta injections in West Virginia were not
always appropriate. Palmetto GBA paid one provider $258,240 for 102 of the 103 payments
reviewed when it should have paid $181,246, an overpayment of $76,994. 6 At the time of our
audit, these overpayments remained outstanding from the provider. Palmetto GBA adjusted one
of the original payments prior to our audit.

Palmetto GBA made the overpayments because the provider incorrectly claimed excessive units
of service on 102 claims. In addition, the Medicare claim processing systems did not have
sufficient edits in place to detect and prevent payments for this type of erroneous claim.

MEDICARE REQUIREMENTS

CMS’s Carriers Manual, Pub. No. 14, part 2, section 5261.1, required that Medicare contractors
process claims accurately in accordance with Medicare program laws, regulations, and
instructions. Section 5261.3 of the manual requires Medicare contractors to develop a medical
review program that “effectively and continually analyzes data that identifies aberrancies,
emerging trends and areas of potential abuse, overutilization or inappropriate care and focusing
on areas where the trust fund is most at risk, i.e., highest volume and/or highest dollar codes.”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04, chapter 17, section 20, requires
Medicare contractors to pay for certain drugs based on the published average sales price. The
maximum allowable payment equals the lesser of the Part B drug fee schedule amount times the
number of units billed or the claimed amount. The Medicare contractor pays the provider
80 percent of the payment amount; the beneficiary pays the remaining 20 percent.

EXCESSIVE UNITS OF SERVICE

Palmetto GBA overpaid $76,994 for 102 claims for excessive units of service incorrectly billed
by one West Virginia provider. For each of the 102 claims reviewed, the provider incorrectly
billed for six units of service rather than one unit of service for 6 mg of Neulasta.

The provider attributed the incorrectly billed quantities to the change in the Medicare payment
methodology beginning January 1, 2004. The provider knew or should have known that the
claims were billed in error because they each exceeded the maximum allowable payment for a
6-mg dose of Neulasta by $239 to $898.

Palmetto GBA paid the 102 claims for excessive units of service because it did not have edits in
place to ensure that the units of Neulasta billed corresponded to the units administered.

PALMETTO GBA SYSTEM EDITS

In October 2006, Palmetto GBA implemented a system edit that suspended all claims for which
the provider billed for more than one unit of Neulasta.


6
    All overpayments occurred for services provided during CYs 2004 through 2006.


                                                         4
In January 2007, CMS required Medicare contractors to implement units-of-service edits referred
to as “medically unlikely edits.” These edits detect and deny unlikely Medicare claims on a
prepayment basis by testing claim lines for the same beneficiary, procedure code, date of service,
and billing provider against a specified number of units of service. However, the medically
unlikely edits did not include Neulasta injections.

RECOMMENDATIONS

We recommend that Palmetto GBA:

   •   recover the $76,994 in overpayments and

   •   consider including its Neulasta edit in the “Medically Unlikely Edits.”

PALMETTO GBA COMMENTS

Palmetto GBA concurred with the finding and recommendations. As a result of the audit,
Palmetto GBA recovered the overpayment totaling $76,994 on October 21, 2009. In addition, on
November 7, 2008, the “Maximum Allowed Units” edit began denying Neulasta services when
the billed quantity is greater than one. Palmetto GBA will also recommend that Correct Coding
Solutions, LLC, add Neulasta to its Medically Unlikely Edits. Palmetto GBA’s comments are
included in the Appendix.




                                                5
APPENDIX
                           APPENDIX: PALMETTO GBA COMMENTS



                                                                                                              Bruce W. Hughes
                                                                                               President and Chief Operating Officer




May 26, 2010


Report number: A-03-09-00017

Stephen Virbitsky
Regional Inspector General for Audit Services
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499

Dear Mr. Virbitsky:

This is in response to the letter dated April 26, 2010 detailing the draft report entitled Medicare Part B Carrier
Payments for Neulasta Injections in West Virginia for Calendar Years 2004 through 2007, report number A-03-09-
00017. The letter requested written comments to include a statement of concurrence or non-concurrence with the
recommendations.

The objective of the audit was to determine whether Medicare payments made by Palmetto GBA for Neulasta
injections in West Virginia were appropriate. Based upon your review, Palmetto GBA processed and paid more
than 24 million claims, of which 4,188 claims included Neulasta injections in West Virginia. The review concluded
that Palmetto GBA paid one provider $258,240.00 when we should have paid $181,246.00 resulting in an
overpayment of $76,994.00. Palmetto GBA concurs with the findings.

To ensure appropriate payment of Neulasta injections, code J2502, was added to automated system edits that
automatically reject and/or deny Neulasta when the quantity billed is greater than one.

    •   On October 6, 2006, Neulasta was added to the 190 edit that rejects the service when the quantity billed is
        greater than one.
    •   In November 2006, an advisory was published to educate the Provider Community on the appropriate use
        of the units billed as related to Neulasta.
    •   On November 7, 2008, Neulasta was added to the Maximum Allowed Units (MAU) that denies the service
        when the submitted quantity billed is greater than one.

In addition, Palmetto GBA will recommend that Neulasta be added to the Medically Unlikely Edits (MUE) which is
maintained by Correct Coding Solutions, LLC.

According to HIGLAS records, the overpayment of $76,994.00 was recovered from Dr.                      on October 21,
2009.

Should you require additional information, please do not hesitate to contact Mr. Gary Zapf at (614) 473-7117.


                                                                           Sincerely,

                                                                           /Bruce W. Hughes/

cc: Gary Zapf, Palmetto GBA


                                     www.palmettogba.com Post Office Box 100134
                                           ISO 9001:2000 Columbia, South Carolina 29202-3134
Office of Inspector General Note - The deleted text has been redacted because it is personally
identifiable information.
